HHS/OIG, Audit - "Review of Californias Medicaid Management Information
System Expenditures for the Period July 1, 2003, Through June 30, 2005,
(A-09-06-00032)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Californias Medicaid Management
Information System Expenditures for the Period July 1, 2003, Through June 30,
2005, (A-09-06-00032)
December 7, 2007
Complete
Text of Report is available in PDF format (1.18 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the $183,179,805 (Federal share) of Californias
Medicaid management information system (MMIS) costs that we reviewed,
$180,906,594 was allowable.  The remaining $2,273,211 consisted of
$2,009,782 of unallowable costs that were not equitably allocated to all
benefiting programs, were not related to the Medicaid program, or were claimed
twice and $263,429 of postage, administrative, and subcontract costs claimed at
the incorrect reimbursement rate.
We recommended that the State agency (1) refund $2,273,211 to the Federal
Government; (2) strengthen internal controls and procedures to ensure that MMIS
costs claimed for Federal reimbursement are allowable, equitably allocated to
all benefiting programs, and claimed at the correct Federal reimbursement rate;
and (3) review MMIS costs claimed for Federal reimbursement after June 30, 2005,
to ensure that the costs claimed were allowable, equitably allocated to all
benefiting programs, and claimed at the correct Federal reimbursement rate.